IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT: To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions to obtain, verify, and record information that identifies each person who opens an account.
What this means for you: When you open an account, we will ask for your name, address, date of birth, and other information that will allow us to identify you.
We may also ask to see your driver’s license or other identifying documents.
NORDSTROM CREDIT CARD ACCOUNT OPENING DISCLOSURE TABLE, APR, FEE, AND OTHER IMPORTANT INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for
Nordstrom Purchases

25.90% This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on purchases if you
pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees
• Late Payment
• Returned Payment

Up to $40.
Up to $29.

How We Will Calculate Your Balance: We use a method called “daily balance.” See your Nordstrom Credit Card Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Nordstrom Credit Card Agreement.
Notice to Members of the Armed Forces and Their Dependents: Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. See your Nordstrom Credit Card Agreement for more details. You may also call 888.246.8731.
Notice: We may report information to credit bureaus about this account with respect to all approved applicants and all authorized users.
Late payments, missed payments, or other defaults on this account may be reflected in your credit report and that of your authorized user’s credit
report. If you do not want the status of this account to be reported to your authorized user’s credit bureau file, do not list an authorized user.
The information about the costs of the card described in this application and the enclosed Nordstrom Credit Card Agreement are accurate as of August 24,
2020. This information may have changed after that date. To find out what may have changed, call us at 1.800.964.1800 or write to us at: Nordstrom, P.O. Box
6555, Englewood, CO 80155-6555.

08/20

NORDSTROM VISA PLATINUM® AND NORDSTROM VISA SIGNATURE® ACCOUNT OPENING DISCLOSURE TABLE APR, FEE, AND OTHER IMPORTANT INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for
Nordstrom Purchases

APR for
Non-Nordstrom Purchases

18.90% to 25.90% when you open your account, based on your creditworthiness. After that, your APR will

vary with the market based on the Prime Rate. The APR assigned to your account for Nordstrom Purchases will be printed
on the temporary card you receive when you open your account.

18.90% to 25.90% when you open your account, based on your creditworthiness. After that, your APR will

vary with the market based on the Prime Rate. The APR assigned to your account for Non-Nordstrom Purchases will be
printed on the temporary card you receive when you open your account.

APR for Cash Advances

26.90%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on purchases if you
pay your entire balance by the due date each month. We will begin charging interest on cash advances on the transaction
date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Cash Advance
• Foreign Transaction

Either $10 or 5% of the amount of each cash advance, whichever is greater.
None

Penalty Fees
• Late Payment
• Returned Payment

Up to $40.
Up to $29.

How We Will Calculate Your Balance: We use a method called “daily balance.” See your Nordstrom Credit Card Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Nordstrom Credit Card Agreement.
Notice to Members of the Armed Forces and Their Dependents: Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. See your Nordstrom Credit Card Agreement for more details. You may also call 888.246.8731.
Notice: We may report information to credit bureaus about this account with respect to all approved applicants and all authorized users.
Late payments, missed payments, or other defaults on this account may be reflected in your credit report and that of your authorized user’s credit
report. If you do not want the status of this account to be reported to your authorized user’s credit bureau file, do not list an authorized user.
The information about the costs of the card described in this application and the enclosed Nordstrom Credit Card Agreement are accurate as of August 24,
2020. This information may have changed after that date. To find out what may have changed, call us at 1.800.964.1800 or write to us at: Nordstrom, P.O. Box
6555, Englewood, CO 80155-6555.

08/20

NORDSTROM CREDIT CARD AGREEMENT

4. AUTHORIZED USERS.

In this Nordstrom Credit Card Agreement (“Agreement”) “we,” “us,” “our,” and “TD
Bank” mean TD Bank USA, N.A., a national bank with its main office located in Delaware,
and its successors and assignees. The terms “I,” “my,” “me,” “you,” and “your”
mean each person who has signed or otherwise submitted an application or other forms
when opening or requesting a Nordstrom credit card account (a “Nordstrom credit
card account,” “Nordstrom Visa Platinum,” “Nordstrom Visa Signature,” or collectively,
the “Credit Card Account”) and each person who is liable to pay for amounts owed
under the Credit Card Account. By applying for and using a Nordstrom Credit Card, you
acknowledge and agree that you are providing, and you direct the recipient to provide,
information from your application (and updates you provide to this information) to both
TD Bank for its credit card banking purposes, and to Nordstrom, Inc. (“Nordstrom”)
for its retail purposes. Please keep in mind that TD Bank shares information about you
to Nordstrom and its affiliates for use in connection with the Nordstrom Credit Card
program and as otherwise permitted by law. Please see the Nordstrom Credit Card
Privacy Notice for more information.

I understand and agree that if I authorize or permit other persons to use my Credit
Card Account, TD Bank will be unable to determine whether any particular purchase
charged to my Credit Card Account by an authorized user was in fact authorized by me
or made for my benefit, and I specifically agree that I will pay for all purchases charged
to my Credit Card Account by an authorized user, whether or not such purchases
were specifically authorized by me or made for my benefit. If I want to cancel the
authorized or permitted use of my Credit Card Account by another person, I must
call 1.800.964.1800, or provide written notification to Nordstrom at P.O. Box 6555,
Englewood, CO 80155, and recover and destroy any such credit card in such person’s
possession.

We have engaged Nordstrom Card Services, an affiliate of Nordstrom, as our service
provider for the Nordstrom Credit Card program and your Credit Card Account. When
you call or write to us, you will be contacting Nordstrom Card Services for Credit Card
Account servicing.

6. MISREPRESENTATION.

Part I of this Agreement sets forth the terms and conditions applicable to all Credit
Card Accounts. Part II of this Agreement provides consumer disclosure statements
addressing Credit Card Accounts Billing Rights Summary.

PART I — CREDIT CARD ACCOUNTS TERMS AND CONDITIONS
1. ACCEPTANCE OF AGREEMENT.
This Agreement governs the use of my Nordstrom Credit Card Account. I have read and
kept this Agreement for my records. The application I signed or otherwise submitted
(including the accompanying federal and state notices) and the card carrier sent
with my Credit Card Account are part of and are incorporated into this Agreement.
My signature on the application I submitted requesting a credit card represents my
signature on this Agreement and each use of the Credit Card Account confirms my
agreement to the terms and conditions stated in this Agreement, as they may be
amended from time to time. This Agreement begins on the earlier of the date that my
application is approved, or the date that I am allowed to use my Credit Card Account,
as evidenced by a signed sales slip, memorandum, or otherwise. If my application is
approved and I am issued a credit card, I agree to pay all amounts owed under this
Agreement.
2. CHANGE IN TERMS.
Subject to the governing law provision (described below in Part I, paragraph 8 of this
Agreement), (a) TD Bank has the right to change any term of this Agreement at any time,
including, without limitation, any Annual Percentage Rate (as defined below), any other
rates and fees, and may add or delete fees and other provisions relating to my Credit
Card Account, and to the nature, extent and enforcement of the rights and obligations
I may have under this Agreement; and (b) the change may be applied to any amount
owed in connection with my Credit Card Account at the time of the change. Subject
to applicable law, I will be given written notice before the effective date of any such
change.
3. PROMISE TO PAY.
I agree to pay in U.S. Dollars for all purchases and cash advances, (including applicable
Interest Charges for Credit Card Accounts) and Fees (as defined in paragraphs 20 and 21
of Part I, below) incurred by me or anyone I authorize or permit to use my Credit Card
Account or credit card, even if I do not notify TD Bank that others are using my Credit
Card Account or credit card. All checks must be drawn on funds on deposit in the United
States. If my Credit Card Account is a joint account, all cardmembers agree to be liable
individually for the entire amount owed on the Credit Card Account. We can accept late
payments or partial payments or checks and money orders marked “payment in full”
without losing our right to receive the full amount owing on your Credit Card Account
or any of our other rights under this Agreement. I understand that I may pay the
unpaid balance in whole, or in part, at any time. I agree to address all communications
concerning disputed debts, including instruments tendered as full satisfaction of debt,
to the following address: Nordstrom, P.O. Box 6555, Englewood, CO 80155.

5. LOST OR STOLEN CARDS.
If any credit card is lost or stolen, or if I think that someone is using my Credit Card
Account or credit card without my permission, I will immediately call 1.800.964.1800, or
provide written notification to Nordstrom at P.O. Box 6555, Englewood, CO 80155.

In the event that any information given to TD Bank in connection with my application
or any future transaction involving my Credit Card Account is false or misleading, TD
Bank reserves the right to terminate this Agreement and take any and all legal action
available under applicable law.
7. CANCELLATION.
For any reason not prohibited by applicable law and with only such notice as is required
by law, TD Bank has the right at any time to terminate my Credit Card Account and this
Agreement as it relates to future purchases or cash advances, or to limit or cancel
my Credit Card Account and credit card privileges. I may terminate this Agreement,
by providing notice in writing to Nordstrom at P.O. Box 6555, Englewood, CO 80155,
and destroying my credit card(s). Termination of this Agreement, or any limitation or
cancellation of my Credit Card Account or credit privileges, will not affect my liability
with respect to all outstanding balances, and I will still be responsible for paying any
outstanding balance or other amounts I owe according to the terms of this Agreement.
TD Bank specifically reserves the right to close my current Credit Card Account based on
the delinquency of any of my other Credit Card Accounts.
8. GOVERNING LAW; ENFORCEABILITY.
I understand that this Agreement, each term of this Agreement, and any amendment to
this Agreement are governed by and construed in accordance with United States federal
law and the laws of the state of Delaware (without regard to any Delaware conflict of law
principles). For example, for Credit Card accounts, this Agreement is made in Delaware
and credit is extended to me from Delaware, so the Credit Card terms of this Agreement
are governed by Delaware law, regardless of where I reside or where I use my account.
I agree that if a dispute arises and I file suit against TD Bank, service of process may
be made only at TD Bank’s main office in Cherry Hill, New Jersey. If any part of this
Agreement becomes unenforceable, it will not make any other part of this Agreement
unenforceable.
For Maryland residents with a Credit Card Account, to the extent federal law and the
laws of the State of Delaware do not apply, this Agreement is governed by Title 12,
Subtitle 9 of the Maryland Commercial Law Article.
9. RESERVATION OF RIGHTS.
We reserve the right not to assess part or all of any fee or other amounts, or not to
exercise any other of its rights under this Agreement, and, by doing so, we will not have
waived our right to assess such fee or other amounts or exercise other rights under this
Agreement in the future. We reserve the right to reject, or refuse to accept, payments or
credits, for any reason, including based on the frequency or amount of the transaction,
or as set forth in Part I, paragraph 16, below.
10. CREDIT REPORTING; INACCURATE INFORMATION.
I hereby authorize TD Bank at its discretion to furnish information concerning my Credit
Card Account to consumer reporting agencies and others who may properly receive
such information. I may provide written notification by writing to Nordstrom at P.O.
Box 6555, Englewood, CO 80155, if I believe TD Bank has information about me that is
inaccurate, or that TD Bank has reported or may report to a consumer reporting agency
information about me that is inaccurate.

11. AUTHORIZATIONS.

19. INTEREST CHARGES.

Some purchases made with my Credit Card Account will require prior authorization,
and I may be asked to provide identification. If our authorization system is not working,
we may not be able to authorize a transaction, even if your Credit Card Account has
sufficient available credit. TD Bank will not be liable to me if any of these events happen.
TD Bank is not responsible for the refusal of anyone to accept or honor my credit card.

A. Balance Categories.

12. ASSIGNMENT.
I may not sell, assign, or transfer my Credit Card Account without first obtaining TD
Bank’s prior written consent. TD Bank may sell, assign or transfer my Credit Card
Account and TD Bank’s rights under this Agreement without prior notice to me.
13. USE OF CARD.
I understand and agree that I may use my Credit Card Account only for personal, family
and household purposes, and I may not use my Credit Card Account for any illegal
purpose. Joint cardmembers shall have the right to use the Credit Card Account to the
extent of any available credit limits.
14. CHANGE OF RESIDENCE.
If I move, I agree to promptly notify TD Bank of my new address by calling
1.800.964.1800, or by writing to Nordstrom at P.O. Box 6555, Englewood, CO 80155.
15. TELEPHONE COMMUNICATIONS.

Interest charges are calculated separately for Purchases and Cash Advances.
“Purchases” are purchases of goods or services from a Nordstrom or other merchant
location. “Cash Advances” are advances from an automated teller machine (ATM);
through a convenience check, home banking, a financial institution, casino, hotel,
or similar location; by making a wire transfer, balance transfer, or bill payment; by
acquiring a money order, traveler’s check, lottery ticket, casino chip, or similar item; or
other similar transactions.
Interest Charges will be calculated separately for Nordstrom and Non-Nordstrom
Purchases. “Nordstrom Purchases” are purchases I make using my Nordstrom retail
or Nordstrom Visa card at Nordstrom locations, including Nordstrom full-line stores,
Nordstrom Rack stores, nordstrom.com, nordstromrack.com, HauteLook, through
Nordstrom catalogs and for purchases of Nordstrom gift cards through CashStar®. “
Non-Nordstrom Purchases” are purchases I charge to my Nordstrom Visa card that are
not Nordstrom Purchases. I understand at this time the Nordstrom retail credit card
cannot be used to make purchases at Nordstrom stores located in Canada.
In this Agreement, a separate balance for Nordstrom Purchases, Non-Nordstrom
Purchases or Cash Advances is sometimes called a “Balance Category.” My billing
statement may show a single calculation of interest charges for multiple Balance
Categories if the same Annual Percentage Rate applies to the Balance Categories.

You agree that we, and our representatives on our behalf, may monitor and/or record
your calls for quality assurance and other appropriate purposes, unless, at the
commencement of each telephone conversation, you advise the representative assisting
you that you do not wish the call to be monitored and/or recorded. You authorize us
and our representatives to make telephone calls to you or send you text messages at
any telephone number you have given to us and our representatives or from which you
have telephoned, including, without limitation, cellular or mobile phones. You authorize
us and our representatives to make such telephone calls and/or leave prerecorded
messages, using automatic telephone dialing devices at any telephone number you
have given to us and our representatives, for any purpose related to your Credit Card
Account.

B. When Interest Charges Begin to Accrue on Purchases.

16. MONTHLY PAYMENTS.

There is no “grace period” for Cash Advances. The interest charge on any Cash Advance
begins on the date of the transaction. This paragraph 19.C only applies to Credit Card
Accounts that have a Cash Advance feature.

Each month, I agree to pay at least the Minimum Payment Due shown on my monthly
billing statement no later than the payment Due Date shown on the monthly billing
statement. The Minimum Payment Due is the sum of the Current Due and any past due
amount. The Current Due is calculated as shown under Paragraph 17, below (“MINIMUM
MONTHLY PAYMENTS”), and may include “Fees.” I may at any time pay more than the
Minimum Payment Due, or pay off my entire Credit Card Account balance in full without
incurring any additional charge. All payments must be mailed or delivered to Nordstrom
at the address shown on my monthly billing statement. Any payment received at this
address will be posted in a timely manner as required by law. The back of my statement
can be referenced for payment instructions. I must include my payment stub, and not
send cash. If any payment does not conform to these requirements, the payment may
not be credited to my Credit Card Account for up to five (5) days, or may be rejected.
I understand that a credit may not be treated as a payment and will not satisfy the
Minimum Payment Due, and that there may be a delay in the posting of a credit on my
Credit Card Account.
17. MINIMUM MONTHLY PAYMENTS.
The Current Due each month will be the greater of $40 or the sum of all Interest Charges
and Fees imposed during the current billing cycle plus 1% of my New Balance, rounded
to the next higher whole dollar amount; provided, that if the New Balance shown on my
monthly billing statement is less than $40, the Current Due will be my New Balance.
18. SPECIAL PAYMENT OPTIONS.
From time to time TD Bank may reduce my Annual Percentage Rate or interest charge,
or allow me to take advantage of other options that may be made available. We may end
the special payment option if your minimum payment is not received within 60 days of
your due date. Qualifying promotional balances are included in the calculation of your
minimum payment due. Other restrictions and details of these special programs will be
provided to me at the time they are offered.

My due date is at least 25 days after the close of each billing cycle. In order to be
eligible for a grace period on Purchases for the current billing cycle, I must pay my New
Balance in full by the payment Due Date shown on that billing statement. If I do not pay
the entire amount of the New Balance by that date, there will be an interest charge on
each Purchase from the date the Purchase is made. For purposes of this paragraph 19.B,
TD Bank will consider credits to my Credit Card Account resulting from an exchange
or return of a Purchase included in my Previous Month’s New Balance only when
determining whether I have paid the entire New Balance shown on my monthly billing
statement by the payment Due Date.
C. When Interest Charges Begin to Accrue on Cash Advances.

D. Daily Balance Method for Computation of the Balances Subject to Interest
Charges.
The interest charge is figured by applying the periodic rate (as described below in
paragraph 19.E) to the “daily balance” of my account for each day in the billing cycle.
To get the “daily balance” of a Balance Category, we take the beginning balance of that
Balance Category each day, add any new transactions or charges and subtract any
credits or payments (or portions thereof) that are applicable to that Balance Category.
This gives us the daily balance for each Balance Category.
Each day’s interest charge on a Balance Category is added to the daily balance of that
Balance Category to get the beginning balance for the next day and will be part of the
Balance Category on which future interest charges are assessed until paid. The total
interest for a billing cycle is equal to the sum of the daily interest for each day in the
billing cycle.
Late Payment Fees and/or Return Payment Fees are prorated and allocated to the
Balance Categories based on the balances of my Balance Categories on the day I
incurred the Late Payment Fee or Return Payment Fees. Miscellaneous fees will be added
to my Nordstrom Purchase Balance Category on the day I incurred the fee.
We will round daily interest charge calculations for a Balance Category to the nearest
whole cent. If I paid in full the New Balance shown on my previous month’s billing
statement by the specified payment Due Date, we will consider your daily balance of
Nordstrom Purchases and Non-Nordstrom Purchases to be zero for each day of the
current month’s billing cycle. A credit balance on a Balance Category is considered to be
zero for purposes of calculating the balance subject to interest charges.

E. Interest Charge Rates.

B. Returned Payment Fee.

The Daily Periodic Rate for a Balance Category is determined by dividing the ANNUAL
PERCENTAGE RATE for the Balance Category by 365. The ANNUAL PERCENTAGE RATE for a
Balance Category is determined by adding a percentage rate (called a “Margin”) to the
Prime Rate for a billing cycle.

If any payment on my Credit Card Account (such as a check, draft, or similar instrument,
or any electronic fund transfer) is uncollectible or is dishonored for any reason, TD
Bank may charge me and I agree to pay a Returned Payment Fee of up to $29. The
amount of the Returned Payment Fee will be determined in accordance with applicable
law. Therefore, the fee generally will not exceed the amount of the applicable Minimum
Payment Due. TD Bank may assess this fee the first time any one of my payment(s) is
not honored or paid, even if such payment is later paid following resubmission. TD Bank
does not have to attempt to collect any payment more than once.

The ANNUAL PERCENTAGE RATE (and Daily Periodic Rate) for a Balance Category may
vary from billing cycle to billing cycle if the Prime Rate for a billing cycle changes. The
“Prime Rate” is the highest prime rate published in the “Money Rates” section of
The Wall Street Journal print edition on the 15th day of a month, or the next business day
if the 15th is not a business day. The Prime Rate for a billing cycle is the Prime Rate most
recently available as of the beginning of the billing cycle.

22. CREDIT LIMIT.

The ANNUAL PERCENTAGE RATES that may apply to a Balance Category are the “Standard
ANNUAL PERCENTAGE RATES” for the Balance Category (described in paragraph 19.F).

I agree that TD Bank may establish credit limits and that my credit purchases and cash
advances at any one time will not exceed my credit limits. I will be advised of my initial
credit line at the time I receive my credit card. I agree that TD Bank may change my
credit line from time to time based upon TD Bank’s evaluation of changes in my credit
capacity. If I exceed my credit line, TD Bank has the right to refuse further purchases
or advances, and to suspend or cancel my account under the terms of this Agreement.
TD Bank will identify any subsequent changes to my credit line on my periodic billing
statements.

F. Standard ANNUAL PERCENTAGE RATES.

23. AVAILABLE CREDIT.

Nordstrom Credit Card Accounts.

After a payment or credit is posted to my Credit Card Account, or after TD Bank learns
my payment has been dishonored and attempts to resubmit my payment, it may take
up to 21 days before my total available credit is restored in an amount equivalent to
the payment or credit amount. For example, if I pay my account balance in full, it may
take up to 21 days after my payment is made before that payment is considered in
determining the amount I can borrow on my account.

Any change in the ANNUAL PERCENTAGE RATE (and Daily Periodic Rate) will take effect on
the first day of the next billing cycle following a change in the Prime Rate and will apply
to any outstanding balance on my Credit Card Account. If the ANNUAL PERCENTAGE RATE
(and Daily Periodic Rate) increases, the amount of the interest charges and the Current
Due may increase.

The Standard ANNUAL PERCENTAGE RATE for Nordstrom Purchases is the Prime Rate plus
a Margin of 22.65 percentage points. As of August 24, 2020, this ANNUAL PERCENTAGE
RATE was 25.90% (Daily Periodic Rate of 0.07096%).
Nordstrom Visa Platinum and Nordstrom Visa Signature Accounts.
The Standard ANNUAL PERCENTAGE RATE(S) that apply to Purchases are based on my
creditworthiness and described below in Tiers I and II. TD Bank will disclose the Standard
ANNUAL PERCENTAGE RATE(S) that apply to Nordstrom Visa Platinum or Nordstrom Visa
Signature before I use my account.
Tier I Accounts: The Standard ANNUAL PERCENTAGE RATE for both Nordstrom and NonNordstrom Purchases is the Prime Rate plus a Margin of 15.65 percentage points. As of
August 24, 2020, this ANNUAL PERCENTAGE RATE was 18.90% (Daily Periodic Rate of
0.05178%).
Tier II Accounts: The Standard ANNUAL PERCENTAGE RATE for both Nordstrom and
Non-Nordstrom Purchases is the Prime Rate plus a Margin of 22.65 percentage points. As
of August 24, 2020, this ANNUAL PERCENTAGE RATE was 25.90% (Daily Periodic Rate
of 0.07096%).
G. Cash Advance ANNUAL PERCENTAGE RATE.
The Cash Advance ANNUAL PERCENTAGE RATE is the Prime Rate plus a Margin of 23.65
percentage points. As of August 24, 2020, this ANNUAL PERCENTAGE RATE was
26.90% (Daily Periodic Rate of 0.07370%). This paragraph 19.G only applies to Credit
Card Accounts that have a Cash Advance feature.
H. Minimum Interest Charge.
A minimum interest charge of $0.50 will be assessed on my Credit Card Account for
any billing cycle in which an interest charge of less than $0.50 is due.
20. CASH ADVANCE FEE.
For each Cash Advance on my Credit Card Account (including advances to me directly or
to someone else at my direction), TD Bank will assess a Cash Advance Fee in an amount
equal to 5% of the amount of the Cash Advance or $10, whichever is greater. This
paragraph 20 only applies to Credit Card Accounts that have a Cash Advance feature.
21. PENALTY FEES.
A. Late Payment Fee.
My Credit Card Account will be subject to a Late Payment Fee of up to $40 for any late or
missed Minimum Payment Due. The amount of the Late Payment Fee will be determined
in accordance with applicable law. Therefore, the fee generally will not exceed the
amount of the applicable Minimum Payment Due. The first Late Payment Fee will not
exceed $29. A subsequent Late Payment Fee assessed within six billing cycles will not
exceed $40.

24. APPLICATION OF PAYMENTS.
Unless otherwise required by applicable law, TD Bank will apply payments up to the
Minimum Payment Due, to amounts owing on my Credit Card Account in the following
order: interest charges, fees, old cash advances, old purchases (when applicable,
to Purchase Balance Categories with higher Standard ANNUAL PERCENTAGE RATES
first), new cash advances, and new purchases (when applicable, to Purchase Balance
Categories with higher Standard ANNUAL PERCENTAGE RATES first). TD Bank will apply
payments in excess of the Minimum Payment Due to amounts owing on my Credit Card
Account in a manner specified by federal law.
25. DEFAULT.
Subject to applicable law, TD Bank may, at its option, declare me to be in default if I fail
to comply with any provision of this Agreement, including failing to make a required
payment when due or exceeding my Credit Card Account credit limit, or if I file for
bankruptcy or am otherwise insolvent, or if TD Bank determines, in its sole discretion,
that the prospect of payment on my Credit Card Account has become significantly
impaired. If I am in default, (a) unless otherwise prohibited by applicable law, TD Bank
may require that I pay the entire balance on my account immediately, at any time, even
though TD Bank did not require me to pay the entire balance on any previous occasion
when I was in default, and (b) I will pay all collection costs, including reasonable
attorneys’ fees and legal costs, if TD Bank refers my Credit Card Account for collection
to an attorney other than a salaried employee of TD Bank or the holder of the account,
to the extent not prohibited by applicable law. Balances in default on my Credit Card
Account may be set-off against any credit balances on any of my other TD Bank Credit
Card Account(s).
26. CURRENCY CONVERSION RATE.
If a charge or cash advance made outside of the U.S. is converted into U.S. Dollars,
Visa will select either (1) a rate from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from the rate
Visa itself receives, or (2) a government-mandated rate in effect for the applicable
central processing date.
STATE-SPECIFIC INFORMATION
California Residents:
If you are married, you may apply for credit in your own name.

Florida Residents:

PART II — CONSUMER DISCLOSURE STATEMENTS

I agree that, should TD Bank obtain a judgment against me, a portion of my disposable
earnings may be attached or garnished (paid to TD Bank by my employer), as provided
by Florida and federal law.

CREDIT CARD ACCOUNTS

Maine Residents:

This notice contains important information about your rights and our responsibilities
under the Fair Credit Billing Act.

We may obtain a consumer report in connection with your application for credit. You
may ask whether a consumer report was obtained by us, and we will tell you the name
and address of the consumer reporting agency, if a report was obtained.
New Hampshire Residents:
I understand that reasonable attorneys’ fees will be awarded to me if I prevail in any
action or suit brought by TD Bank. Also, if I successfully assert a partial defense or
counterclaim to an action brought by TD Bank, the court may withhold from TD Bank the
entire amount or such portion of the attorneys’ fees as the court considers equitable.
New Jersey Residents:
Because certain provisions of this Agreement are subject to governing law, they may be
void, unenforceable or inapplicable in some jurisdictions. None of these provisions are
void, unenforceable or inapplicable within New Jersey.
New York Residents:
New York residents may contact the New York State Department of Financial Services
by telephone or visit its website for free information on comparative credit card
rates, fees, and grace periods. New York State Department of Financial Services:
1.800.342.3736 or http://www.dfs.ny.gov.
Ohio Residents:
The Ohio laws against discrimination require that all creditors make credit equally
available to all creditworthy customers and that credit reporting agencies maintain
separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
Rhode Island and Vermont Residents:

Your Billing Rights: Keep This Notice For Future Use

What To Do If You Find A Mistake On Your Statement
If you think there was an error on your statement, write to us at:
Nordstrom
P.O. Box 6555
Englewood, CO 80155
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we
are not required to investigate any potential errors and you may have to pay the amount
in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.

A consumer credit report may be ordered in connection with this application, or
subsequently for purposes of review or collection of the account, increasing the credit
line on the account, or other legitimate purposes associated with the account. If you
are a Vermont resident, you consent to the obtaining of such reports by signing or
otherwise submitting a credit application.

2. Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.

Wisconsin Residents:

• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.

No provision of a marital property agreement, a unilateral statement under section
766.59 Wis. Stats, or a court decree under section 766.70 Wis. Stats. adversely affects
the interest of the creditor unless the creditor, prior to the time credit is granted, is
furnished a copy of the agreement, statement, or decree, or has actual knowledge of
the adverse provision when the obligation to the creditor is incurred. Married Wisconsin
residents must furnish their account number, and spouse’s name and address, to
Nordstrom at P.O. Box 6555, Englewood, CO 80155.
NOTICE TO MEMBERS OF THE ARMED FORCES AND THEIR DEPENDENTS
The following important notice applies if you are a member of the Armed Forces or a
dependent of one at the time your account is established.
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: the costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a
credit card account).
If you would like more information, please call 888.246.8731.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.

• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to the amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchases.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:
Nordstrom
P.O. Box 6555
Englewood, CO 80155
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as delinquent.
CUSTOMER SERVICE
For questions or assistance, just give us a call at 1.800.964.1800, seven days a week,
24 hours a day.
Thanks for being one of our most valued customers!

Revised 08/20

